 Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




REVIEW OF MEDICARE CONTRACTOR
     INFORMATION SECURITY
   PROGRAM EVALUATIONS FOR
       FISCAL YEAR 2012

    Inquiries about this report may be addressed to the Office of Public Affairs at
                             Public.Affairs@oig.hhs.gov.




                                                  Daniel R. Levinson
                                                   Inspector General

                                                       July 2014
                                                     A-18-14-30100
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                      EXECUTIVE SUMMARY

 Independent evaluations of the Medicare contractor information security program were
 adequate in scope and were sufficient. The Centers for Medicare & Medicaid Services
 should continue efforts to ensure that all Medicare contractor findings are remediated.

WHY WE DID THIS REVIEW

Each Medicare contractor must have its information security program evaluated annually by an
independent entity. These evaluations must address the eight major requirements enumerated in
the Federal Information Security Management Act of 2002 (FISMA). The Social Security Act
(the Act) also requires evaluations of the information security controls for a subset of systems
but does not specify the criteria for these evaluations. The Inspector General, Department of
Health and Human Services, must submit to Congress annual reports on the results of these
evaluations, to include assessments of their scope and sufficiency. This report fulfills that
responsibility for fiscal year (FY) 2012.

Our objectives were to assess the scope and sufficiency of Medicare contractor information
security program evaluations and report the results of those evaluations and assessments.

BACKGROUND

The Medicare Prescription Drug, Improvement, and Modernization Act of 2003 added to the Act
information security requirements for Medicare administrative contractors (MACs), fiscal
intermediaries, and carriers, which process and pay Medicare fee-for-service claims. To comply
with these requirements, the Centers for Medicare & Medicaid Services (CMS) contracted with
PricewaterhouseCoopers (PwC) to evaluate information security programs at the MACs, fiscal
intermediaries, and carriers using a set of agreed-upon procedures.

The Act also requires evaluations of the information security controls for a subset of systems but
does not specify the criteria for these evaluations. To satisfy this requirement, CMS expanded
the scope of its evaluations to test segments of the Medicare claims processing systems hosted at
the Medicare data centers, which support each of the MACs, fiscal intermediaries, and carriers.

WHAT WE FOUND

PwC’s evaluations of the contractor information security programs were adequate in scope and
were sufficient. PwC reported a total of 159 gaps at 10 Medicare contractors for FY 2012, which
was 45 percent greater than the number of gaps for the same 10 contractors in FY 2011. The
increase in the number of gaps was due to the addition of four test procedures and the expansion
of eight test procedures as required by CMS. Gaps are defined as the differences between
FISMA or CMS core security requirements and the contractors’ implementation of them.




Review of Medicare Contractor Information Security Program Evaluations for FY 2012 (A-18-14-30100)   i
Assessment of Scope and Sufficiency

PwC’s evaluations of the contractor information security programs adequately encompassed in
scope and sufficiency the eight FISMA requirements referenced in the Act.

Results of Contractor Information Security Program Evaluations

The results of the contractor information security program evaluations are presented in terms of
gaps.

At the 10 contractors in FY 2012, which covered all MACs, fiscal intermediaries, and carriers,
PwC identified a total of 159 gaps, which it consolidated into 121 findings. The number of gaps
increased by 45 percent when compared with the results for those 10 contractors in FY 2011
because of the expansion of testing in FY 2012.

The number of gaps per contractor in FY 2012 ranged from 11 to 22 and averaged 16. The most
gaps occurred in the following FISMA control areas: policies and procedures to reduce risk (44
gaps at 10 contractors); periodic testing of information security controls (44 gaps at 10
contractors); incident detection, reporting, and response (24 gaps at 10 contractors); system
security plans (15 gaps at 8 contractors); and continuity of operations for information technology
systems (14 gaps at 8 contractors).

The contractors are responsible for developing a corrective action plan for each finding. CMS is
responsible for tracking each finding until it is remediated.

CONCLUSION

The scope of the work and sufficiency of documentation for all reported gaps were sufficient for
the 10 Medicare contractors reviewed by PwC. The total number of gaps identified at the
Medicare contractors increased from the previous year because of new and expanded testing
during the FY 2012 evaluations. Deficiencies remain in the FISMA control areas tested. CMS
should ensure that all gaps are remediated by the Medicare contractors.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

CMS said it had “no comment on the draft report.”




Review of Medicare Contractor Information Security Program Evaluations for FY 2012 (A-18-14-30100)   ii
                                                     TABLE OF CONTENTS


INTRODUCTION ...........................................................................................................................1

          Why We Did This Review ...................................................................................................1

          Objectives ............................................................................................................................1

          Background ..........................................................................................................................1
                The Medicare Program ............................................................................................1
                Medicare Prescription Drug, Improvement, and Modernization Act of 2003 .........1
                CMS Evaluation Process for Fiscal Year 2012........................................................2

          How We Conducted This Review........................................................................................3

FINDINGS             ..................................................................................................................................3

          Assessment of Scope and Sufficiency .................................................................................3

          Results of Medicare Contractor Information Security Program Evaluations ......................3
                 Policies and Procedures To Reduce Risk.................................................................5
                 Periodic Testing of Information Security Controls ..................................................5
                 Incident Detection, Reporting, and Response ..........................................................6
                 System Security Plans ..............................................................................................7
                 Continuity of Operations for Information Technology Systems .............................7

CONCLUSION ................................................................................................................................8

CMS COMMENTS .........................................................................................................................8

APPENDIXES

          A: Audit Scope and Methodology ......................................................................................9

          B: List of Gaps by Federal Information Security Management Act of 2002
              Control Area and Medicare Contractor......................................................................10

          C: Percentage Change in Gaps per Medicare Contractor ................................................11

          D: Results of Medicare Contractor Evaluations for Federal Information
               Security Management Act of 2002 Control Areas with the Greatest
               Number of Gaps ......................................................................................................12

          E: CMS Comments ..........................................................................................................17




Review of Medicare Contractor Information Security Program Evaluations for FY 2012 (A-18-14-30100)                                                   iii
                                              INTRODUCTION

WHY WE DID THIS REVIEW

The Medicare Prescription Drug, Improvement, and Modernization Act of 2003 (MMA) requires
that each Medicare contractor have its information security program evaluated annually by an
independent entity. These evaluations must address the eight major requirements enumerated in
the Federal Information Security Management Act of 2002 (FISMA). The Social Security Act
(the Act) also requires evaluations of the information security controls for a subset of systems
but does not specify the criteria for these evaluations. The Inspector General, Department of
Health and Human Services, must submit to Congress annual reports on the results of these
evaluations, to include assessments of their scope and sufficiency. This report fulfills that
responsibility for fiscal year (FY) 2012.

OBJECTIVES

Our objectives were to assess the scope and sufficiency of Medicare contractor information
security program evaluations and report the results of those evaluations.

BACKGROUND

The Medicare Program

The Centers for Medicare & Medicaid Services (CMS) administers Medicare. Medicare is a
health insurance program for people aged 65 or older, people under age 65 with certain
disabilities, and people of all ages with end-stage renal disease. In FY 2012, Medicare paid
approximately $478 billion on behalf of more than 50 million Medicare beneficiaries. CMS
contracts with Medicare Administrative Contractors (MACs), fiscal intermediaries, and carriers
to administer Medicare benefits paid on a fee-for-service basis. In FY 2012, 10 distinct entities
served as MACs, fiscal intermediaries, and carriers for Medicare Parts A and B to process and
pay Medicare fee-for-service claims. 1

Medicare Prescription Drug, Improvement, and Modernization Act of 2003

The MMA added information security requirements for MACs, fiscal intermediaries, and carriers
to section 1874A of the Act. 2 (See 42 U.S.C. § 1395kk-1.) Each MAC, fiscal intermediary, and
carrier must have its information security program evaluated annually by an independent entity
(the Act § 1874A(e)(2)(A)). This section requires that these evaluations address the eight major
requirements enumerated in the FISMA. (See 44 U.S.C. § 3544(b).) These requirements,
referred to as “FISMA control areas” in this report, are:


1
    In FY 2011, there were 11 Medicare contractors. One contractor left the Medicare program during FY 2012.
2
 The MMA contracting reform provisions added to section 1874A of the Act replace existing fiscal intermediaries
and carriers with MACs, which are competitively selected. Until all MACs are in place, the requirements of
section 1874A also apply to fiscal intermediaries and carriers.

Review of Medicare Contractor Information Security Program Evaluations for FY 2012 (A-18-14-30100)                1
        1. periodic risk assessments;

        2. policies and procedures to reduce risk;

        3. system security plans;

        4. security awareness training;

        5. periodic testing of information security controls;

        6. remedial actions;

        7. incident detection, reporting, and response; and

        8. continuity of operations for information technology (IT) systems.

Section 1874A(e)(2)(A)(ii) of the Act requires that the effectiveness of information security
controls be tested for an appropriate subset of Medicare contractors’ information systems.
However, this section does not specify the criteria for evaluating these security controls.

Additionally, section 1874A(e)(2)(C)(ii) of the Act requires us to submit to Congress annual
reports on the results of such evaluations, including assessments of their scope and sufficiency.

CMS Evaluation Process for Fiscal Year 2012

CMS developed agreed-upon procedures (AUP) for the program evaluation on the basis of the
requirements of section 1874A(e)(1) of the Act, FISMA, information security policy and
guidance from the Office of Management and Budget and the National Institute of Standards and
Technology (NIST), and the Government Accountability Office’s (GAO) Federal Information
Systems Controls Audit Manual (FISCAM). In FY 2012, the independent auditors,
PricewaterhouseCoopers (PwC), under contract with CMS, used the AUPs to evaluate the
information security programs at the 10 entities that served as MACs, fiscal intermediaries, and
carriers. Many of the entities had multiple contracts with CMS to fulfill their responsibilities as
Medicare fiscal intermediaries, carriers, Medicare Parts A and B MACs, and Durable Medical
Equipment MACs. As a result, PwC issued separate reports for 18 MACs, fiscal intermediaries,
and carriers.

To comply with the section 1874A(e)(2)(A)(ii) requirement to test the effectiveness of
information security controls for an appropriate subset of contractors’ information systems, CMS
included in the scope of its AUP evaluations testing of segments of the Medicare claims
processing systems hosted at the Medicare data centers, which support each of the MACs, fiscal
intermediaries, and carriers. Medicare data centers are used for “front-end” preprocessing of
claims received from providers and “back-end” issuing of payments to providers after claims
have been adjudicated. PwC performed additional testing to eliminate the need to contract with
another entity to perform the assessments that had been performed in previous years at the data
centers of the MACs, fiscal intermediaries, and carriers.

Review of Medicare Contractor Information Security Program Evaluations for FY 2012 (A-18-14-30100)   2
The results of the contractor information security program evaluations are presented in terms of
gaps or findings, which are defined as differences between FISMA or CMS core security
requirements and the contractor’s implementation of the requirements. In some instances, PwC
determined that gaps involving the contractor’s internal control and its operations did not rise to
the level of a finding, so they were noted as an observation and no corrective action plan was
required. PwC assigned impact levels and risk ratings to each of the findings. The contractors
are responsible for developing a corrective action plan for each finding, and CMS is responsible
for tracking all corrective action plans and ensuring that the findings are remediated.

HOW WE CONDUCTED THIS REVIEW

We evaluated the FY 2012 results of the independent evaluations of the Medicare contractors’
information security programs. Our review did not include an evaluation of internal controls.

We conducted this performance audit in accordance with generally accepted government
auditing standards, except that we did not obtain comments from PwC. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We believe that
the evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

Appendix A contains the details of our audit scope and methodology.

                                               FINDINGS

PwC’s evaluations of the contractor information security programs were adequate in scope and
were sufficient. PwC reported a total of 159 gaps at the 10 Medicare contractors, which resulted
in 121 findings and 38 observations.

ASSESSMENT OF SCOPE AND SUFFICIENCY

PwC’s evaluations of the contractor information security programs adequately encompassed in
scope and sufficiency the eight FISMA requirements referenced in section 1874A(e)(1) of the
Act.

RESULTS OF MEDICARE CONTRACTOR INFORMATION SECURITY PROGRAM
EVALUATIONS

As shown in Table 1, PwC identified a total of 159 gaps at the 10 Medicare contractors. The
number of gaps per contractor ranged from 11 to 22 and averaged 16. See Appendix B for a list
of gaps per control area by contractor.




Review of Medicare Contractor Information Security Program Evaluations for FY 2012 (A-18-14-30100)    3
                            Table 1: Range of Medicare Contractor Gaps 3
                                                      Number of Contractors With
                   Number of          Total        0    1-5      6–10    11-15   16+
           FY      Contractors        Gaps        Gaps Gap(s) Gaps       Gaps    Gaps
          2011         10              110         0     1         3       5      1
          2012         10              159         0     0         0       5      5

The total number of gaps reported for the 10 Medicare contractors that PwC evaluated in both
FY 2011 and FY 2012 increased by 45 percent in FY 2012 (from 110 in FY 2011 to 159 in
FY 2012). The increase in the number of gaps was due to the addition of four test procedures
and the expansion of eight test procedures, as required by CMS. The number of contractors with
0 to 10 gaps decreased by 4, and the number of contractors with 16 or more gaps increased by 4.
Only one contractor had fewer gaps in FY 2012, and eight contractors had more gaps. See
Appendix C for the FY 2011 to FY 2012 percentage change in gaps per Medicare contractor.

Table 2 summarizes the gaps found in each FISMA control area in FYs 2011 and 2012. All 8
FISMA control areas had an increase in gaps for FY 2012, with an increase of 2 to 13 gaps.

Table 2: Gaps by Federal Information Security Management Act Control Area in FY 20123
                                                                                         No. of Contractors
                                                       No. of Gaps Identified            With One or More
                     FISMA                                                                     Gap(s)
                  Control Area                          FY 2011          FY 2012         FY 2011 FY 2012
    Periodic risk assessments                              0                 4              0           3
    Policies and procedures to reduce risk                37                44             10          10
    System security plans                                 12                15              6           8
    Security awareness training                            3                 9              3           5
    Periodic testing of information security
                                                            31                44             10             10
    controls
    Remedial actions                                         3                 5              3             5
    Incident detection, reporting, and
                                                            15                24             10             10
    response
    Continuity of operations for IT systems                 9                 14              7             8
     Total                                                110                159

The Medicare contractor information security program evaluations covered several subcategories
within each FISMA control area. Individual findings were assigned an overall risk level on a
subjective basis by PwC after considering the impact to CMS and likelihood of occurrence.



3
 The comparisons in Tables 1 and 2 and throughout the discussion that follows are limited to the 10 contractors that
PwC evaluated in both FY 2011 and FY 2012. (For FY 2011, PwC reported a total of 127 gaps at the 11 Medicare
contractors then in place.)


Review of Medicare Contractor Information Security Program Evaluations for FY 2012 (A-18-14-30100)                 4
The following sections discuss the five FISMA control areas containing the most gaps. See
Appendix D for descriptions of each subcategory tested for the five control areas.

Policies and Procedures To Reduce Risk

According to NIST Special Publication (SP) 800-53, Recommended Security Controls for
Federal Information Systems and Organizations:

         … the management of risk is a key element in the organization’s information
         security program and provides an effective framework for selecting the
         appropriate security controls for an information system—the security controls
         necessary to protect individuals and the operations and assets of the organization.
         The risk-based approach to security control selection and specification considers
         effectiveness, efficiency, and constraints taking into account applicable federal
         laws, Executive orders, directives, policies, regulations, standards, or guidelines.

All 10 Medicare contractors had from 2 to 6 gaps each related to policies and procedures to
reduce risk. In total, PwC identified 44 gaps in this area. Following are examples of gaps in
policies and procedures to reduce risk:

    •    System configuration checklists did not comply with CMS requirements.

    •    Systems operating in the contractor’s environment did not have the latest patches 4
         installed.

    •    Malicious software protection procedures and mechanisms were not fully configured in a
         manner consistent with CMS requirements.

Ineffective policies and procedures to reduce risk could jeopardize an organization’s mission,
information, and IT assets. Without adequate configuration standards and the latest security
patches, systems may be susceptible to exploitation that could lead to unauthorized disclosure of
data, data modification, or the unavailability of data.

Periodic Testing of Information Security Controls

The effectiveness of information security policies, procedures, practices, and controls should be
tested and evaluated at least annually (NIST SP 800-53, Control CA-2). Security testing enables
organizations to measure levels of compliance in areas such as patch management, password
policy, and configuration management (NIST SP 800-115, Technical Guide to Information
Security Testing and Assessment, section 2.3). Changes to an application should be tested and
approved before being put into production (FISCAM, section 3.3).

All 10 Medicare contractors had from 4 to 5 gaps each related to periodic testing of information
security controls. In total, 44 gaps were identified in this area.
4
  A patch is a piece of software designed to correct security and functionality problems in software programs and
firmware.

Review of Medicare Contractor Information Security Program Evaluations for FY 2012 (A-18-14-30100)                  5
Following are examples of gaps in periodic testing of information security controls:

    •   The contractor’s system inventory process had not been implemented in accordance with
        CMS requirements. A complete and accurate listing of systems and devices supporting
        Medicare claims processing was not maintained.

    •   The contractor’s system security configurations did not comply with CMS requirements.

    •   Security weaknesses were found by internal network penetration testing.

Without a comprehensive program for periodically testing and monitoring information security
controls, management has no assurance that appropriate safeguards are in place to mitigate
identified risks.

Incident Detection, Reporting, and Response

The Executive Summary of NIST SP 800-61, Computer Security Incident Handling Guide, states
that:
        Computer security incident response has become an important component of
        information technology programs. Security-related threats have become not only
        more numerous and diverse but also more damaging and disruptive. New types of
        security-related incidents emerge frequently. Preventative activities based on the
        results of risk assessments can lower the number of incidents, but not all incidents
        can be prevented. An incident response capability is therefore necessary for
        rapidly detecting incidents, minimizing loss and destruction, mitigating any
        weaknesses that were exploited, and restoring computing services….

All 10 Medicare contractors had 1 to 4 gaps related to incident detection, reporting, and
response. In total, PwC identified 24 gaps in this area. Following are examples of gaps in
incident detection, reporting, and response:

    •   The log review policies and procedures and log review process did not comply with CMS
        requirements.

    •   A process was not in place to report scans of the network to CMS in accordance with
        CMS requirements.

    •   Personally identifiable information and protected health information incidents were not
        reported to CMS in accordance with CMS requirements.

Keeping the number of incidents reasonably low is very important to protect the business
processes of the organization. If security controls are insufficient, high volumes of incidents
may occur, which could overwhelm the incident response team. This could lead to slow and
incomplete responses and negative business effects (e.g., extensive damage to computer systems,
periods without computer service, and periods when data are unavailable).


Review of Medicare Contractor Information Security Program Evaluations for FY 2012 (A-18-14-30100)   6
System Security Plans

An agency should ensure its information security policy is sufficiently current to accommodate
the information security environment and the agency mission and operational requirements
(NIST SP 800-100, Information Security Handbook: A Guide for Managers, section 2.2.5).
Organizations must screen employees before granting access to information and information
systems (NIST SP 800-53, Control PS-3); they should revoke system access immediately
following an employee termination (NIST SP 800-53, Control PS-4); and develop system
security plans to provide an overview of the security requirements of the system and describe the
controls in place or planned for meeting those requirements (Executive Summary of NIST SP
800-18, Guide for Developing Security Plans for Federal Information Systems).

Two of the ten Medicare contractors had no identified gaps related to system security plans,
while the remaining 8 had from 1 to 2 gaps each. In total, PwC identified 15 gaps in this area.

Following are examples of gaps in system security plans:

    •   New hires did not complete the necessary contractor’s requirements before being granted
        systems access.

    •   System access for terminated users was not removed within the contractor-required
        timeframe.

    •   The contractor’s system security plan did not identify a complete list of platforms that
        supports Medicare operations.

If information security program requirements are not implemented and enforced, management
has no assurance that established system security controls will be effective in protecting valuable
assets, such as information, hardware, software, systems, and related technology assets that
support the organization’s critical missions.

Continuity of Operations for Information Technology Systems

According to NIST SP 800-34, Contingency Planning Guide for Federal Information Systems,
section 2.2, “contingency planning represents a broad scope of activities designed to sustain and
recover critical IT services following an emergency.” Contingency planning for information
systems is part of an overall organizational program for achieving continuity of operations for
business operations. Physical security controls and media disposal were also included in the
scope of PwC’s testing in this area.

Two of the ten Medicare contractors had no identified gaps in continuity of operations for IT
systems, while the remaining 8 had 1 to 4 gaps each. In total, PwC identified 14 gaps in this
area. Following are examples of gaps in continuity of operations planning:




Review of Medicare Contractor Information Security Program Evaluations for FY 2012 (A-18-14-30100)   7
    •   The media disposal process did not meet CMS requirements.

    •   Contingency plan personnel did not receive contingency plan training within the past year.

    •   Procedures for performing backups were not documented in a manner consistent with
        CMS requirements.

If contingency planning activities are inadequate, even relatively minor interruptions of service
can result in lost or incorrectly processed data, which can cause harm to beneficiaries, financial
losses, expensive recovery efforts, and inaccurate or incomplete financial or management
information.

                                            CONCLUSION

The scope of the work and sufficiency of documentation for all reported gaps were sufficient for
the 10 Medicare contractors reviewed by PwC. The total number of gaps identified at the
Medicare contractors has increased from FY 2011, and deficiencies remain in the FISMA control
areas tested. CMS should ensure that all gaps are remediated by the Medicare contractors.

                                          CMS COMMENTS

CMS said it had “no comment on the draft report.” We have included CMS’s comments in their
entirety as Appendix E.




Review of Medicare Contractor Information Security Program Evaluations for FY 2012 (A-18-14-30100)   8
                    APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

We evaluated the FY 2012 results of the independent evaluations of Medicare contractors’
information security programs. Our review did not include an evaluation of internal controls.
We performed our reviews of PwC working papers at CMS headquarters in Baltimore,
Maryland, and at Office of Inspector General regional offices from October 2013 through
January 2014.

METHODOLOGY

To accomplish our objectives, we performed the following steps:

        •   To assess the scope of the evaluations of contractor information security programs,
            we determined whether the AUPs included the eight FISMA control requirements
            enumerated in section 1874A(e)(1) of the Act.

        •   To assess the sufficiency of the evaluations of contractor information security
            programs, we reviewed PwC working papers supporting the evaluation reports to
            determine whether PwC sufficiently addressed all areas required by the AUPs. We
            also determined whether all security-related weaknesses were included in the PwC
            reports by comparing supporting documentation with the reports. We determined
            whether all findings in the PwC reports were adequately supported by comparing the
            reports with the PwC working papers.

        •   To report on the results of the evaluations, we aggregated the results in the individual
            contractor evaluation reports. For the PwC evaluations, we used the number of gaps
            listed in the individual contractor evaluation reports to aggregate the results.

We conducted this performance audit in accordance with generally accepted government
auditing standards, except that we did not obtain comments from PwC. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We believe that
the evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.




Review of Medicare Contractor Information Security Program Evaluations for FY 2012 (A-18-14-30100)   9
                                   APPENDIX B: LIST OF GAPS BY
                      FEDERAL INFORMATION SECURITY MANAGEMENT ACT OF 2002
                            CONTROL AREA AND MEDICARE CONTRACTOR

                                                Control Areas (With Impact Levels)

                            Policies                                 Periodic                  Incident       Continuity
                              and                                   Testing of                Detection,          of
              Periodic     Procedures    System        Security    Information                Reporting,      Operations
Medicare        Risk       To Reduce     Security     Awareness      Security     Remedial       and            for IT     Total
Contractor   Assessments      Risk        Plans        Training      Controls      Actions    Response         Systems     Gaps
    1             0            5            1             0             5             0            1              4         16
    2             0            4            2             3             5             1            3              1         19
    3             0            2            2             0             5             0            2              1         12
    4             1            6            2             0             5             1            4              3         22
    5             1            4            0             0             4             0            2              0         11
    6             2            6            2             1             4             1            3              2         21
    7             0            5            2             2             4             0            3              1         17
    8             0            4            2             1             4             1            2              1         15
    9             0            4            0             0             4             1            2              1         12
   10             0            4            2             2             4             0            2              0         14
  Total           4           44           15             9            44             5           24             14        159




         Review of Medicare Contractor Information Security Program Evaluations for FY 2012 (A-18-14-30100)           10
APPENDIX C: PERCENTAGE CHANGE IN GAPS PER MEDICARE CONTRACTOR

Contractor                  FY 2011 Gaps                       FY 2012 Gaps                 % Change
      1                          9                                  16                        78%
      2                         14                                  19                         36
      3                         12                                  12                          0
      4                         16                                  22                         38
      5                          5                                  11                        120
      6                         11                                  21                         91
      7                          9                                  17                         89
      8                         12                                  15                         25
      9                         13                                  12                         (8)
     10                          9                                  14                         56
    Total                      110                                 159                       45%




Review of Medicare Contractor Information Security Program Evaluations for FY 2012 (A-18-14-30100)     11
      APPENDIX D: RESULTS OF MEDICARE CONTRACTOR EVALUATIONS
      FOR FEDERAL INFORMATION SECURITY MANAGEMENT ACT OF 2002
          CONTROL AREAS WITH THE GREATEST NUMBER OF GAPS

POLICIES AND PROCEDURES TO REDUCE RISK

The Medicare contractor information security program evaluations assessed eight subcategories
related to policies and procedures to reduce risk. The evaluation reports identified a total of 44
gaps in this FISMA control area.

                   Table 1: Gaps in Policies and Procedures To Reduce Risk
                                                                              Total No. of Gaps
                                        Subcategory                             in This Area
                    Systems security controls have been tested and
                    evaluated. The system and network boundaries
                    have been subjected to periodic reviews or audits.
                    Management reports for review and testing of IT
            1       security policies and procedures, including                         2
                    network risk assessment, accreditations and
                    certifications, internal and external audits and
                    security reviews, and penetration and
                    vulnerability assessments exist.
                    All gaps in compliance per CMS’s minimum
            2       security requirements are identified in the results                 0
                    of management’s compliance checklist.
                    Security policies and procedures include controls
            3                                                                           5
                    to address platform security configurations.
                    Security policies and procedures include controls
            4                                                                           9
                    to address patch management.
                    The latest patches have been installed on
            5                                                                           8
                    contractor’s systems.
                    Security settings are included within internal
            6       checklists and comply with Defense Information                     10
                    Systems Agency standards.
                    Malicious software protection mechanisms have
                    been installed on workstations and laptops, are
            7       up to date, and are operating effectively, and                     10
                    administrators are alerted of any malicious
                    software identified on workstations and laptops.
                    The network is logically separated between test,
            8                                                                           0
                    development, and production networks.
                     Total                                                             44




Review of Medicare Contractor Information Security Program Evaluations for FY 2012 (A-18-14-30100)   12
PERIODIC TESTING OF INFORMATION SECURITY CONTROLS

The Medicare contractor information security program evaluations covered six subcategories
related to the periodic testing of information security controls. The evaluation reports identified
a total of 44 gaps in this FISMA control area.

                Table 2: Gaps in Periodic Testing of Information Security Controls
                                                                              Total No. of Gaps
                                       Subcategory                              in This Area
                    Annual reviews and audits are conducted to
                    evaluate compliance with FISMA guidance from
            1       the Office of Management and Budget for                            10
                    reviews of IT security controls, including
                    platform configuration standards.
            2       Change control management procedures exist.                          0
                    Change control procedures are tested by
            3                                                                            4
                    management to make certain they are in use.
                    Systems are configured according to the
            4       contractor’s documented security configuration                     10
                    checklists.
                    Weaknesses are identified by PwC during a
            5                                                                          10
                    network attack and penetration test.
                    A formally maintained system component
            6                                                                          10
                    inventory is up to date and accurate.
                     Total                                                             44




Review of Medicare Contractor Information Security Program Evaluations for FY 2012 (A-18-14-30100)   13
INCIDENT DETECTION, REPORTING, AND RESPONSE

The Medicare contractor information security program evaluations assessed four subcategories
related to incident detection, reporting, and response. The evaluation reports identified a total of
24 gaps in this FISMA control area.

                 Table 3: Gaps in Incident Detection, Reporting, and Response
                                                                              Total No. of Gaps
                                       Subcategory                              in This Area
                    Management has a process to monitor systems
            1       and networks for unusual activity and intrusion                     5
                    attempts.
                    Management has procedures to take and has taken
                    action in response to unusual activity; intrusion
            2                                                                           4
                    attempts; and actual intrusions, including
                    reporting.
                    Management incident response processes and
            3       procedures are documented in accordance with                        5
                    CMS requirements.
                    Log review procedures have been developed for
                    specific platforms, log reviews were completed
            4                                                                          10
                    per procedures, and intrusion detection systems
                    have been properly placed and configured.
                     Total                                                             24




Review of Medicare Contractor Information Security Program Evaluations for FY 2012 (A-18-14-30100)   14
SYSTEM SECURITY PLANS

The Medicare contractor information security program evaluations assessed six subcategories
related to system security plans. The evaluation reports identified a total of 15 gaps in this
FISMA control area.

                               Table 4: Gaps in System Security Plan
                                                                              Total No. of Gaps
                                       Subcategory                              in This Area
            1      A security plan is documented and approved.                          0
            2      The security plan is kept current.                                   6
                   A security management structure has been
            3      established and criticality and sensitivity risk                       0
                   designations have been assigned to positions.
                   Hiring, transfer, and termination policies address
            4                                                                             7
                   security.
            5      Employee background checks are performed.                              1
                   Management has documented that it periodically
            6      assesses the appropriateness of security policies                      1
                   and compliance with them.
                    Total                                                               15




Review of Medicare Contractor Information Security Program Evaluations for FY 2012 (A-18-14-30100)   15
CONTINUITY OF OPERATIONS FOR IT SYSTEMS

The Medicare contractor information security program evaluations assessed 10 subcategories
related to continuity of operations for IT systems. The evaluation reports identified a total of 14
gaps in this FISMA control area.

                   Table 5: Gaps in Continuity of Operations for IT Systems
                                                                    Total No. of Gaps
                                      Subcategory                     in This Area
                   Critical data and operations are formally
            1      identified and prioritized. Emergency                       0
                   processing priorities are established.
                   Data and program backup procedures have been
            2                                                                  2
                   implemented.
                   Adequate environmental controls have been
            3      implemented. Physical security controls exist to            0
                   protect IT resources.
            4       Staff has been trained to respond to emergencies.                      3
                    The organization manages maintenance
            5                                                                              2
                    activities.
                    Policies and procedures for disposal of data and
            6       equipment exist and include applicable Federal                         7
                    security and privacy requirements.
            7       An up-to-date contingency plan is documented.                          0
                    Arrangements have been made for alternate data
            8                                                                              0
                    processing and telecommunications facilities.
            9       The contingency plan is periodically tested.                           0
                    Contingency plan test results are analyzed and
           10                                                                              0
                    contingency plans adjusted accordingly.
                     Total                                                               14




Review of Medicare Contractor Information Security Program Evaluations for FY 2012 (A-18-14-30100)   16
                                          APPENDIX E: CMS COMMENTS 



  /   ....'1«#-..

 ( t6                DEPARTMENT OF HEALTH & HUMAN SERVICES                                 Centers for Medicare & Medicaid Services


  ,'5~                                                                                     Administrator
                                                                                           Washing1on , DC 20201




                    DATE:            JUN 16   201~

                    TO: 	         Danie l R. Levi nson
                            ~~~~tor Ge~eral
                    FROM:        ·l~er
                                  A~8-
                    SUBJECT: 	 Office of Inspector General OIG Draft Re port: Review of Medicare Contrac to r
                               Information Security Program Evaluations for Fiscal Year 20 12 (A- 18- 14-30 I 00)

                    The Centers for Medicare & Medicaid Services (C MS) thanks OIG for the opportunity to review
                    and comment on the above-subject draft report. The objective of this study was to assess the
                    sco pe and sufficiency of Medicare contractor information security program evaluations and
                    report the results. At this time, C MS has no comment on the draft report.

                    The CMS thanks OIG for their efforts on this issue and looks forward to working with OIG on
                    this and other issues in the future.




Review ofMedicare Contractor Information Security Program Evaluations for FY 2012 (A-18-14-301 00)                                    17
